U.S. Department of                                     The Inspector General          Office of Inspector General
Transportation                                                                        Washington, DC 20590
Office of the Secretary
of Transportation



August 7, 2008


The Honorable Patty Murray                              The Honorable John W. Olver
Chairman                                                Chairman
Subcommittee on Transportation,                         Subcommittee on Transportation,
Housing and Urban Development, and                      Housing and Urban Development, and
Related Agencies                                        Related Agencies
Committee on Appropriations                             Committee on Appropriations
United States Senate                                    United States House of Representatives
Washington, DC 20510                                    Washington, DC 20515

The Honorable Christopher “Kit” Bond                    The Honorable Joe Knollenberg
Ranking Member                                          Ranking Member
Subcommittee on Transportation,                         Subcommittee on Transportation,
Housing and Urban Development, and                      Housing and Urban Development, and
Related Agencies                                        Related Agencies
Committee on Appropriations                             Committee on Appropriations
United States Senate                                    United States House of Representatives
Washington, DC 20510                                    Washington, DC 20515

Dear Chairmen Murray and Olver and Ranking Members Bond and Knollenberg:

This report 1 presents our quarterly assessment of Amtrak’s fiscal year (FY) 2008
financial performance and operational reform savings. 2 Through June of FY 2008,
Amtrak is still performing better than expected financially, but now projects a
year-end operating loss 3 of $456 million, a $12 million greater loss than it
projected for our April report. As of May of FY 2008, Amtrak projects a year-end
cash balance of $289.1 million. It achieved $19.5 million in operating reform
savings through April, $3.2 million more than budgeted. Overall, we believe
1
    Our previous quarterly reports on Amtrak’s savings from operational reforms are available on the Office
    of Inspector General (OIG) website at www.oig.dot.gov.
2
    Defined throughout as either net operating savings or a reduction in net operating losses.
3
    Operating loss is reported on an earnings before interest, taxes, depreciation, and other post-employment
    benefits (EBITDO) basis, unless otherwise noted. We use the EBITDO basis because it is a reasonable
    proxy for Amtrak’s Federal operating support requirement.


CC-2008-074
                                                                                 2

Amtrak may achieve its target of $40.3 million in FY 2008 operational reform
savings.

Summary

   • Amtrak’s operating loss through June was $294.1 million, $72.8 million
     less than originally forecast due largely to better than expected revenues.
     Amtrak forecasts it will finish FY 2008 with an operating loss of
     $456 million, $19 million less than originally forecast. This year-end
     projected loss is a $12 million increase over the projection included in our
     April report. This change is largely a result of an accrual of one-time costs
     related to Amtrak’s recent labor settlements; higher than budgeted fuel,
     power, and utility costs; and increased revenues.

   • Over 65 percent ($12.7 million) of Amtrak’s cost savings were achieved
     from productivity savings in Amtrak’s core operating departments and
     reflect lower staffing requirements. These savings resulted from better
     business practices and management efficiency reforms undertaken in the
     prior 2 years.

   • Amtrak continues to make progress on a limited set of sustainable
     operational reforms, but the direct returns from some of these efforts appear
     to be nearly exhausted. Amtrak must continue to look for new opportunities
     for reducing its operating losses to allow for more Federal support to be
     directed toward its significant capital backlog.

   • Amtrak is in the process of developing a new 5-year strategic plan that it
     hopes to complete and begin implementing this fall. Along with the
     strategic plan, Amtrak needs to ensure the appropriate management
     structure to ensure adequate oversight, management, and reporting on its
     strategic reform initiatives.

Amtrak’s Financial Performance through May Exceeded Projections

This section provides the results of our review of Amtrak’s year-to-date financial
performance.

Corporate Level Results. Amtrak’s operating loss was $72.8 million less than
budgeted through June. Consistent with our April 30, 2008, report, this favorable
financial performance reflects better than expected ticket revenues offset
somewhat by rising fuel and utilities costs. Amtrak projects a year-end FY 2008
operating loss of $456.1 million, $18.9 million less than the amount of its Federal


CC-2008-074
                                                                                                                                                                       3

       operating subsidy. As of May, Amtrak also projects a cash balance of
       $289.1 million, $100.1 million or 53 percent higher than the $189 million cash
       balance it originally forecast. Amtrak’s original FY 2008 cash forecast anticipated
       making certain payments in FY 2008 associated with the then ongoing labor
       negotiations. The final labor agreement called for a substantial portion of these
       payments to be made in FY 2009, not FY 2008, thereby adding to the FY 2008
       cash balance. 4

       Figure 1, below, presents a comparison of Amtrak’s operating loss through May
       and its budgeted operating loss.

                                   Figure 1. Amtrak Actual vs. Budget Operating Loss
                                                    Fiscal Year 2008

                           Oct     Nov        Dec         Jan         Feb        Mar         Apr            May         Jun          Jul           Aug         Sep
                     0
                            (27)
                                      (45)       (62)
                          (31)                              (95)
                                   (62)
                                                                        (158)
                                             (108)
                                                                                    (194)
                  (200)
                                                        (176)                                       (220)
                                                                                                               (272)
  $ in millions




                                                                     (231)
                                                                                                                           (294)
                                                                                (275)
                                                                                            (311)                                          (344)

                                                                                                            (347)                                      (389)
                  (400)
                                                                                                                       (367)       (398)
                                                                                   Forecast loss includes                                          (432)           (456)
                                                                                   $71.9 million accrual for
                                                                                                                                                               (475)
                                                                                   retroactive pay.

                  (600)


                                                                   Budget                     Actual                       Forecast

Source: Amtrak.

       Operating revenues through June were $115.5 million better than budget. This
       includes ticket revenues that were $87.2 million, or 7.6 percent, higher than
       budget. Amtrak now projects year-end passenger revenues will be $211.6 million,
       or 12.2 percent, above FY 2007 and $112.4 million, or 6.1 percent, above the
       FY 2008 budget projection. Between February and June 2008, Amtrak increased
       its year-end ticket revenue forecast by $37.9 million. Consistent with our April
       report, Amtrak attributes the improved year-to-date performance to fare increases
       and a peak pricing strategy for Acela service, as well as an increase in ridership as
       4
                  See Office of Inspector General correspondence CC-2008-077 “Review of Amtrak’s Labor Settlement
                  Costs,” June 17, 2008, for details on labor settlement costs. All Office of Inspector General reports and
                  testimonies are accessible on our website at www.oig.dot.gov..


       CC-2008-074
                                                                                     4

a result of rising gasoline prices and the deteriorating quality of service in the
airline industry. These increases were offset by the loss of an estimated
$15.1 million due to service disruptions caused by mudslides, flooding, and the
Thames River Bridge replacement. In line with our April report, freight access
fees and other revenues were $12.0 million above budget, due in large part to the
one-time sale of eight P-40 locomotives to the Connecticut Department of
Transportation. Additionally, commercial development fees were $10.2 million
more than budgeted, commuter revenue was $4.3 million more than budgeted, and
reimbursable revenue was $5.7 million more than budgeted.

Operating expenses through June were $33.9 million more than budgeted,
reflecting higher fuel, power, and utility (energy) costs that were partially offset by
lower than expected personnel costs. At year end, operating expenses are projected
to be $124.0 million more than budgeted. Energy costs were $43.0 million higher
than budgeted through June, and Amtrak projects that at year end they will be
$95.5 million higher than budgeted, largely due to the cost of diesel fuel. We
believe, however, that Amtrak’s higher fuel costs may be more than offset by
increased revenues as rising gasoline prices induce customers to substitute train
travel for trips they previously would have taken by privately owned vehicle or air.

These increases were partially offset through lower salaries, wages and benefits
costs, which were $2.2 million below budget. Decreases continue to reflect the
result of a management hiring freeze and a significantly lower than expected
health benefits costs, which was a result of an improved claims history for the
Amtrak health plan. Those costs, however, were partially offset by increased
overtime. In April, we reported that personnel costs were $24.2 million lower than
budgeted. In contrast, the current costs reflect an accrual of $25.8 million in higher
than budgeted labor settlement costs since our April report. Amtrak now projects
to finish the year with salaries, wages, and benefits of $13.2 million over budget.

A variety of smaller items largely in the facilities, communication, office and
casualty, and other claims expense categories are also responsible for offsetting
some of the higher than budgeted energy costs.

Business Line Results. As shown in table 1 on the next page, Amtrak’s favorable
corporate-wide operating results are attributed to operating income through May
on the Northeast Corridor (NEC). NEC income for that period was $60.0 million
better than the same period last year and largely reflected higher ticket revenues,
which were offset by higher personnel costs. The operating loss on Amtrak’s state-
supported and other corridors through May was $12.8 million more than last year
mainly because of higher than projected wages and fuel costs. The operating loss
for long-distance trains through May was $48.4 million more than the same period
last year because of higher than projected wages and fuel costs.


CC-2008-074
                                                                                                  5



             Table 1. Amtrak Business Line Operating Performance
                     October 2007 though May 2008 ($ in millions)

                                                                                  Variance to
Business Line                                     FY 2008            FY 2007
                                                                                   Last Year

National Train System Operations                   (182.5)           ($181.3)             (1.2)

  Northeast Corridor                               $249.3             $189.3              $60.0

  State-Supported and Other Corridors              ($89.9)            ($77.1)           ($12.8)

  Long-Distance Service                           ($341.9)           ($293.5)           ($48.4)

Amtrak’s FY 2008 Operating Reform Savings are Exceeding
Projections

Amtrak achieved $19.5 million in operating reform savings through April, mostly
through productivity improvements in the Environmental, Transportation, and
Mechanical Departments (see table 2 below). We expect Amtrak will achieve
approximately $40 million in operational reform savings in FY 2008.

           Table 2. Summary of FY 2008 Operating Reform Savings
                               ($ in millions)

                                        Budgeted         Actual                 Variance
Saving Initiatives                     YTD Benefit     YTD Benefit                 +/-
Reduce Costs and Improve
                                           6.4               7.1                  0.7
Service Quality
Increase Sales and Distribution
                                           0.6               2.0                  1.4
Efficiencies

Enhance Reliability and
                                          (4.4)              (3.8)                0.6
Efficiency of Mechanical Services

Improve Management Systems
                                           2.0               1.5                  (0.5)
and Overhead Efficiencies

Achieve Ongoing Efficiencies              11.6               12.7                 1.1

Total                                     16.3               19.5                 3.2
Columns may not sum due to rounding.
Source: Amtrak.



CC-2008-074
                                                                                   6

The following sections provide details on the implementation plans, status, and
savings of Amtrak’s initiatives through April.

Reduce Costs and Improve Service Quality. Amtrak saved $7.1 million through
this reform initiative through April, slightly more than it projected to save. This
initiative has three components: NEC Service Improvement, Long-Distance
Service Improvements, and Food and Beverage Service restructuring

The NEC Service Improvement program focuses on Acela service and includes a
16th Acela trainset, improving customer satisfaction, and Wi-Fi availability on
trains and in stations. Increased equipment availability, which resulted from
Amtrak’s Reliability Centered Maintenance (RCM) program, enabled Amtrak to
put a 16th Acela trainset into service in July 2007. The 16th Acela trainset
originally serviced the Washington, D.C. to New York market and has generated
$2.3 million in additional revenue through April. In May Amtrak redirected this
trainset to the New York to Boston market because it concluded that the
incremental revenue from a 10th additional round trip in the northend market was
greater than that from a 16th additional southend round trip. Customer satisfaction
continues to be addressed on Acela through service improvements such as an
overhaul of the Acela first-class menu service, leather seats in first class, and
continued customer service focus, all resulting in an estimated revenue increase of
$3 million through April. Wi-Fi service on trains has been delayed because
Amtrak lost its contracted provider, but the service is available in Amtrak stations.
Amtrak is searching for a new provider.

Long-Distance Service Improvements planned for FY 2008 include the relaunch
of the Coast Starlight service, continued focus on improving customer service, and
luxury charter services. The Coast Starlight relaunch involves an upgrade of
service with a redesigned Pacific Parlour Car service and enhanced food and
beverage services. This initiative creates a revenue center from the Parlour cars,
where some of those services were previously offered as free amenities. The
January mudslides in Oregon delayed the relaunch of the Coast Starlight until
June and reduced savings to $0.2 million in additional revenue through April.
Amtrak is placing customer service managers on five routes—the City of New
Orleans, Southwest Chief, Crescent, Sunset Limited, and Empire Builder to
support specific service improvements similar to what is being done on the NEC.
This initiative began in April and Amtrak reports $0.1 million in savings thus far.
Finally, as we reported in April, GrandLuxe cancelled its luxury charter service
after eight trips because it found the venture unprofitable.

Amtrak has suspended any further Food and Beverage Service restructuring
because it determined that the streamlined dining/lounge cars provided insufficient
seating capacity, given the recent ridership increases. Further, Amtrak continues to


CC-2008-074
                                                                                  7

achieve incremental savings from its renegotiated contract with Gate Gourmet by
identifying new cost saving opportunities in areas such as supplies and linen
service procurement. Through April, these efforts achieved $1.3 million in
savings.

Increased Sales and Distribution Efficiencies. Amtrak achieved $2.0 million in
additional revenue through April, $1.4 million more than planned. Amtrak’s
e-ticketing program, which began in FY 2007, is being expanded this year to
include a new website that provides access to international travel agents to book
Amtrak tickets. The success of this initiative is likely because of the demand
abroad for the service, combined with a weakened dollar. The next step in this
initiative is its demonstration (beta-test) of hand-held ticket scanners. The
demonstration is scheduled to take place in Maine. Upon successful completion of
its demonstration, the e-ticketing initiative is expected to be implemented over the
next 2 years.

Enhance Reliability and Efficiency of Mechanical Services. This initiative is
focused on the continued rollout of Amtrak’s Reliability Centered Maintenance
program designed to reduce maintenance costs and allow more equipment to
remain in service. Initially applied to Acela equipment, the program is being rolled
out to other equipment. At this time, the initiative’s negative “savings” reflects
development costs and includes the cost of additional maintenance managers for
the high-speed rail maintenance program and consulting fees for the design and
implementation of RCM. In the long run, RCM will reduce maintenance costs,
improve equipment reliability, and increase revenues by allowing trains to be
returned to revenue service earlier.

In areas where it determines that greater efficiency can be achieved, Amtrak
continues to consolidate types of work (for example, centralizing maintenance
work on each type of equipment). Amtrak is not reporting any savings this year
from this initiative.

Improve Management Systems and Overhead Efficiencies. This initiative
consists of two programs—reduced energy costs and improved on-board credit
card automation. The program to reduce energy costs relies on contract and billing
management and has resulted in a net savings of $0.7 million through April,
despite rising utility costs.

On-board credit card automation is another program carried over from previous
years, and consists of improved revenues by making it easier for customers to use
credit cards as a form of payment and reducing the cost of credit card transactions
through automated processes and other improved procedures. With $0.8 million in



CC-2008-074
                                                                                  8

revenue enhancements and cost savings through April, this program is on track to
produce the estimated full year benefit of $2.1 million.
Achieve Ongoing Efficiencies. This initiative consists of three programs—
engineering efficiencies, fuel use management, and productivity savings in the
Environmental, Transportation, and Mechanical Departments.
The engineering efficiencies program is designed to produce savings through the
increased productivity of the engineering workforce by capping growth in the
number of overtime hours. This program, which has been under way since
FY 2006, produced $48,000 of the $1 million in savings budgeted through April.
Amtrak is currently implementing a program designed to train locomotive
engineers in techniques to maximize the fuel efficiency of their equipment. Its
start was delayed from January until May 2008, but it is expected to produce
$0.1 million in savings this year.
Finally, the Environmental, Transportation, and Mechanical Departments’
productivity improvement initiative has saved $12.7 million through April,
$1.1 million more than budgeted. Since the issuance of our April report, we have
agreed to classify these savings as operating reforms, based on new information
provided by Amtrak. Savings have come from a variety of efforts implemented
over the last 2 years, such as enhanced work management systems in the
Engineering and Mechanical departments. As a result of these and a number of
other initiatives, Amtrak has been able to reevaluate its need to backfill positions
that become vacant as a result of attrition. As it becomes apparent from analysis of
workforce needs that a position is no longer necessary, that position is eliminated
rather than backfilled, resulting in budget savings.
Amtrak’s Operating Reform Efforts Lack Strategic Direction
As we previously reported, Amtrak achieved a combined $114.1 million in cost
savings in FYs 2006 and 2007 from its FY 2005 Strategic Reform Initiatives
(SRI). We expect an additional $40 million in savings this year. With the
exception of its Reliability Centered Maintenance initiative, many of these
programs have reached or will soon reach completion. In fact, over half of this
year’s savings represent ongoing labor productivity from many of the reform
initiatives completed in previous years. Further, Amtrak’s FY 2009 Legislative
and Grant Request reflects no additional savings from new operational reforms.
Amtrak’s last strategic plan, issued in FY 2005, has largely run its course. Amtrak
managers have repeatedly stated that the absence of a plan limits their ability to
move forward on individual operating reforms.
Consequently, Amtrak’s Board and management are working on a new strategic
plan that may be completed this year. It is expected to be incorporated into the
FY 2010 budget. Key issues that the new strategic plan will need to address are:



CC-2008-074
                                                                                  9

      • how Amtrak will evaluate tradeoffs between competing demands for its
        resources, whether that demand is to maintain or expand existing service or
        add new service or amenities;
      • the linkage between Amtrak’s planned activities and its bottom line,
        particularly the continued improvement in its cost-effectiveness; and
      • the detailed steps or tactical plan Amtrak proposes to follow to achieve its
        strategic direction.
Conclusion
Amtrak continues to make progress on a limited set of sustainable operational
reforms, but the direct returns from some of these efforts appear to be nearly
exhausted. Amtrak must continue to look for new opportunities for reducing its
operating losses to allow for more Federal support to be directed toward its
significant capital backlog. We are awaiting the release of a new strategic plan to
provide a renewed effort for achieving further efficiencies.
Amtrak’s failure to reach the goals of its FY 2005 strategic plan can be attributed
to a lack of realistic analysis and stakeholder support. It is imperative that the
forthcoming plan contain both of these elements if it is to succeed. Furthermore,
we believe Amtrak should ensure that management commitment and corporate
resources are allocated to define specific operational reforms, implementation
plans, and a program management framework that will provide for an appropriate
level of accountability and transparency.
Under separate cover, we are transmitting copies of this letter to the Secretary of
Transportation and the Chairman of Amtrak’s Board of Directors. If you have any
questions concerning this letter, please contact me at (202) 366-1959 or
David Tornquist, Assistant Inspector General for Rail and Maritime Program
Audits and Economic Analysis, at (202) 366-1981.
Sincerely,




Calvin L. Scovel III
Inspector General
Enclosures (2)
cc:      Secretary of Transportation
         Chairman of Amtrak’s Board of Directors




CC-2008-074
                                                                           Enclosure 1
                                                                            Page 1 of 2

              Table 3. Amtrak’s Proposed Operational Reforms
                                ($ in millions)
   Strategic Reform
   Initiative and               Objective
   Program                                               FY 2008 Targeted Savings

   1. Reduce Costs and Improve Service Quality
                      Focus management
                      attention and drive
                      accountability for train
   NEC Service
                      service performance,                         7.0
   Improvements
                      including on-board service
                      quality and on-time
                      performance.
                      Enhance service flexibility by
   Food and           redesigning food services
   Beverage           (for example, multi-purpose                  3.3
   Services           food service cars), improving
                      equipment, and outsourcing.

   Long-Distance      Improve customer
   Service            satisfaction with long-                      4.3
   Improvement        distance service.
   2. Increase Sales and Distribution Efficiencies
                     Develop enterprise systems
   e-ticketing       and processes for                             1.3
                     e-ticketing.
   3. Enhance Reliability and Efficiency of Mechanical Services
                      Implement RCM to reduce
   Reliability
                      cycle time and increase
   Centered
                      equipment reliability and                    (8.3)
   Maintenance
                      availability. Costs represent
   (RCM)
                      consultant fees.
                      Optimize facility utilization by
   Facilities
                      consolidating and                            0.2
   Efficiencies
                      redesigning facilities.

   4. Improve Management Systems and Overhead Efficiencies

                      Modernize management of
   Reduce Energy      utilities contracts and identify
                                                                   2.0
   Costs              savings in individual utilities
                      line items.
                      Reduce overhead costs
   Reduce
                      through on-board credit card                 2.1
   Overhead Costs
                      automation




CC-2008-074
                                                                                    Enclosure 1
                                                                                     Page 2 of 2


               Table 4. Amtrak’s Proposed Operational Reforms ($ in millions)
                                          (cont.)

              Strategic Reform Initiative                              FY 2008 Targeted
                                                   Objective
              and Program                                                  Savings

              5. Achieve Ongoing Efficiencies
                                            Reduce costs of
                                            Engineering Department;
                                            maximize fuel efficiency
                                            of locomotives by
              Train Operations              training engineers,              19.8
                                            productivity savings in
                                            Environmental,
                                            Transportation, and
                                            Mechanical Departments
              Total                                                          31.8
Source:                                                                                   Amtrak




          CC-2008-074
                                                                          Enclosure 2


               Table 4. Summary of Amtrak Savings through April of FY 2008
                                     ($ in millions)

                                                     Budgeted   Budgeted Actual
                                                                                   YTD
           Amtrak Net Operating Savings               FY 2008     YTD     YTD
                                                                                 Variance
                                                      Benefit    Benefit Benefit
Reform Initiatives
 1. Reduce Costs and Improve Service Quality           14.6       6.4       7.1      0.7
 NEC Service Improvements                              7.0        3.0       5.3      2.3
    NEC Acela Service Improvement                      4.0        1.4       3.0      1.6
    16th Acela Trainset                                1.7        1.4       2.3      0.9
     Implement On-board Wi-Fi                          1.3        0.2       0.0     (0.2)
 Long-Distance Service Improvements                    4.3        1.6       0.5     (1.1)
    Coast Starlight Relaunch                           2.2        0.3       0.2     (0.1)
    Customer Service Improvement                       0.9        0.1       0.1      0.0
    Luxury Charter Services                            1.2        1.2       0.2     (1.0)
 Food and Beverage                                     3.3        1.8       1.3     (0.5)
    Redesign Equipment                                 1.5        0.7       0.4     (0.3)
    Gate Gourmet Contract                              1.8        1.1       0.9     (0.2)
 2. Increase Sales and Distribution Efficiencies       1.3        0.6       2.0      1.4
    e-Ticketing Customized Access                      1.3        0.6       2.0      1.4
 3. Enhance Reliability and Efficiency of
                                                       (8.1)      (4.4)    (3.8)        0.6
      Mechanical Services
    Reliability Centered Maintenance                   (8.3)      (4.4)    (3.8)        0.6
    Facility Consolidation                              0.2        0.0      0.0         0.0
 4. Improve Management Systems and Overhead
                                                       4.1        2.0       1.5     (0.5)
      Efficiencies
    Reduce Energy Costs                                2.0         1.2      0.7     (0.5)
    On-Board Credit Card Automation                    2.1         0.8      0.8      0.0
 5. Achieve Ongoing Efficiencies                       19.8       11.6      12.7     1.1
    Fuel Use Management                                0.1         0.0      0.0      0.0
    Engineering Efficiencies                           1.7         1.0      0.0     (1.0)
    Productivity Savings in Environmental,
                                                       18.0       10.6      12.7        2.1
    Transportation, and Mechanical Departments
Reform Initiative Savings                              31.8       16.3      19.5        3.2
    Savings from Unidentified Business Initiatives     8.5         0.0      0.0         0.0
Total                                                  40.3       16.3      19.5        3.2
Columns may not sum due to rounding.
Source: Amtrak.

        Addendum:




        CC-2008-074
The following table contains information contained in a graph (Figure 1) in
this document. This information was not a part of the original document
but has been added here to accommodate assistive technology.

Figure 1: Amtrak Actual vs. Budget Operating Loss, Fiscal Year
2008 ($ in millions)

                              Actual Operating        Budget Operating
                                   Loss                    Loss
October                              -27                    -31
November                             -45                    -62
December                             -62                   -108
January                              -95                   -176
February                            -158                   -231
March                               -194                   -275
April                               -220                   -311
May                                 -272                   -347
June                                -294                   -367
July (forecast)                     -344                   -398
August (forecast)                   -389                   -432
September (forecast)                -456                   -475

Source: Amtrak




CC-2008-074
